HHS/OIG, Audit - "Medicaid Payments for Beneficiaries with Concurrent Eligibility
in Michigan and Ohio - Michigan Department of Community Health,"
(A-05-06-00020)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Selected Ohio Skilled Nursing Facilities' Minimum Data Set Reporting for
Purposes of Medicare Payments to Managed Care Organizations," (A-05-06-00022)
August 25, 2006
Complete
Text of Report is available in PDF format (153 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to evaluate whether nine selected skilled nursing facilities in Ohio accurately
reported the long-term status of institutionalized beneficiaries to ensure proper Medicare
payments to the managed care organizations.  The nine selected Ohio skilled nursing
facilities followed Federal regulations (42 CFR 483.20(b)(1)) and accurately and completely
reported assessment information for long-term care facility residents the State specified
reporting document or Resident Assessment Instrument.  Minimum Data Set assessments
of one hundred beneficiaries in a six-month period included discharges and re-entry assessments
in compliance with the 14-day rule.  We confirmed that the correct determinations of
resident institutional status were made.  As a result, the referring managed care organizations
received the correct institutional payment for all one hundred beneficiaries reviewed.  Therefore,
no recommendations were warranted.